TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2007 Statutory Review of
                       Compliance With Lien Due Process
                                   Procedures



                                          March 20, 2007

                              Reference Number: 2007-30-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 20, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2007 Statutory Review of Compliance
                                 With Lien Due Process Procedures (Audit # 200630032)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Lien Due
 Process Procedures. The overall objective of this review was to determine whether IRS Notice
 of Federal Tax Lien filings and notices of taxpayers’ appeal rights complied with legal guidelines
 set forth in Internal Revenue Code Section (I.R.C. §) 6320.1 The Treasury Inspector General for
 Tax Administration is required by law to determine annually whether lien notices sent by the IRS
 comply with the legal guidelines in I.R.C. § 6320.2 This is our ninth annual audit to determine
 the IRS’ compliance with the law and with its own related internal guidelines when sending lien
 notices.

 Impact on the Taxpayer
 After filing Notices of Federal Tax Lien, the IRS must notify the affected taxpayers in writing
 within 5 business days of the lien filings. The IRS has not always complied with this statutory
 requirement. Therefore, the taxpayers’ rights to appeal the lien filings may be jeopardized.

 Synopsis
 The IRS attempts to collect Federal taxes due from taxpayers by sending letters, making
 telephone calls, and meeting face to face with taxpayers. When initial contacts by the IRS do not
 result in the successful collection of unpaid tax, the IRS has the authority to attach a claim

 1
     I.R.C. § 6320 (Supp. V 1999).
 2
     I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                     Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                          Process Procedures



(called a Federal Tax Lien) to the taxpayer’s assets for the amount of the unpaid tax.3 The IRS
files a Notice of Federal Tax Lien, which notifies interested parties that a lien exists. Since
January 19, 1999, I.R.C. § 6320 has required the IRS to
notify taxpayers in writing within 5 business days of the           The IRS did not comply with
filing of a Notice of Federal Tax Lien.                              the legal guidelines in all
                                                                     cases. In 4 of 150 Federal
The IRS did not comply with the law in all cases. Our                 Tax Lien cases, the IRS
review of a statistically valid sample of 150 Federal Tax             issued lien notices after
Lien cases identified 142 cases (95 percent) for which the               the required period.
IRS did mail lien notices timely and correctly as required by
I.R.C. § 6320 and internal procedures. Four lien notices
(about 3 percent) were not sent timely; for another 4 lien notices (about 3 percent), we could not
determine if the IRS complied with the law because the IRS could not provide proof of mailing.
When an initial lien notice is returned because it could not be delivered and a different address is
available for the taxpayer, the IRS is not always meeting its statutory requirement to send the
lien notice to the taxpayer’s last known address.
Also, the IRS did not always follow its own internal guidelines for notifying taxpayer
representatives of the filing of lien notices. For 15 (60 percent) of the 25 cases in which the
taxpayer had a representative at the time of the IRS lien actions, the IRS did not notify the
taxpayer’s representative of the lien filing.

Recommendations
We recommended the Director, Collection, Small Business/Self-Employed Division, consult
with the IRS Office of Chief Counsel to identify any actions necessary to correct the potential
legal violations we identified in this audit. We also recommended the Director, Collection,
Small Business/Self-Employed Division, reestablish procedures for (1) controlling and
processing returned mail as undelivered, refused, or unclaimed and (2) returning undelivered lien
notices to the initiators of the Notices of Federal Tax Lien. In addition, management should
change the procedures for routing undelivered mail among three offices.

Response
IRS management agreed with our findings and recommendations. The IRS will issue new lien
notices to the eight taxpayers we had identified and will review procedures for mailing notices
and maintaining certified mailing lists. Management has revised procedures requiring employees
to conduct research for last known addresses so immediate appropriate actions can be taken on
undelivered mail. In addition, management will initiate discussions to determine whether

3
    I.R.C. § 6321 (1994).
                                                                                                   2
               Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                    Process Procedures



returning notices to originators provides a benefit to taxpayers and the IRS. Management’s
complete response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                             3
                     Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                          Process Procedures




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Lien Notices Were Not Always Mailed Timely, and Proof of Mailing
          Could Not Always Be Located .....................................................................Page 4
                    Recommendation 1:..........................................................Page 5

          Ineffective Working of Undelivered Lien Notices Resulted in
          Violations of Taxpayers’ Rights ...................................................................Page 5
                    Recommendation 2:..........................................................Page 7

          Internal Guidelines for Notifying Taxpayer Representatives
          Were Not Always Followed .........................................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Synopsis of the Internal Revenue Service
          Collection and Lien Filing Processes............................................................Page 16
          Appendix VI – Internal Revenue Service Computer Systems
          Used in the Filing of Notices of Federal Tax Lien ......................................Page 18
          Appendix VII – Management’s Response to the Draft Report.....................Page 19
         Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                              Process Procedures




                         Abbreviations

ACS                Automated Collection System
ALS                Automated Lien System
CLU                Centralized Lien Unit
FY                 Fiscal Year
ICS                Integrated Collection System
IDRS               Integrated Data Retrieval System
I.R.C.             Internal Revenue Code
IRS                Internal Revenue Service
TIGTA              Treasury Inspector General for Tax Administration
                  Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                       Process Procedures




                                            Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face to face with taxpayers. When initial
contacts by the IRS do not result in the successful collection of an unpaid tax, the IRS has the
authority to attach a claim to the taxpayer’s assets for the amount of unpaid tax.1 This claim is
referred to as a Federal Tax Lien. The IRS files in appropriate local government offices a Notice
of Federal Tax Lien,2 which notifies interested parties that a lien exists.
Since January 19, 1999, Internal Revenue Code Section (I.R.C. §) 63203 has required the IRS to
notify taxpayers in writing within 5 business days of the
filing of a Notice of Federal Tax Lien. The IRS is
                                                            The IRS must notify taxpayers in
required to notify taxpayers the first time a Notice of
                                                             writing of the filing of a Federal
Federal Tax Lien is filed for each tax period. The           Tax Lien within 5 business days
Notice of Federal Tax Lien Filing and Your Right to a                  of the filing.
Hearing Under IRC 63204 (lien notice) is used for this
purpose and advises taxpayers that they have
30 calendar days, after that 5-day period, to request a
hearing with the IRS Appeals office. The lien notice indicates the date on which this 30-day
period expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent by certified or registered mail to the taxpayer’s last known
address.
The lien processing operation has been centralized at the Cincinnati, Ohio, Campus,5 except for
the printing and mailing of taxpayer lien notices. The centralization took most of Fiscal
Year (FY) 2005 to be implemented. The National Print Sites in Detroit, Michigan, and
Ogden, Utah, are responsible for the printing and mailing of taxpayer lien notices. They have a
goal to reduce the number of untimely issued lien notices by using mail facilities located at their
sites. IRS personnel take the mail lists and lien notices to the Mail unit, where they are metered

1
  Internal Revenue Code Section 6321 (1994).
2
  Notice of Federal Tax Lien (Form 668(Y) (C); (Rev. 10-1999)), Cat. No. 60025X.
3
  I.R.C. § 6320 (Supp. V 1999).
4
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 11-2004)),
Cat. No. 26767I.
5
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 1
                             Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                                  Process Procedures



and prepared daily for shipment to the main post office. In the in-house mail facility, a United
States Postal Service employee is responsible for date stamping the certified mail lists. After
these mail lists are stamped, an IRS employee sends them to the Centralized Lien Unit (CLU) via
overnight mail. A synopsis of the IRS collection and lien filing processes is included in
Appendix V. A description of IRS computer systems used in the filing of liens is included in
Appendix VI.
The IRS has been relatively consistent in the number of Federal Tax Liens it has filed to protect
the Federal Government’s interest. The number of Notices of Federal Tax Lien filed increased
from FY 2002 to FY 2003, decreased slightly in FYs 2004 and 2005, then increased in FY 2006.
Figure 1 shows the number of Notices of Federal Tax Lien filed in the last 5 fiscal years.
                                              Figure 1: Liens Filed

                          700,000                                                        629,813
                          600,000              544,316     534,392        522,887
        Number of Liens




                                    482,509
                          500,000
                          400,000
                          300,000
                          200,000
                          100,000
                               0
                                    2002      2003         2004          2005           2006
                                                      Fiscal Year

    Source: IRS Data Book 2005 and IRS personnel. 6

The Treasury Inspector General for Tax Administration (TIGTA) is required annually to
determine whether, when filing Notices of Federal Tax Lien, the IRS complied with the law
regarding the notifications of affected taxpayers and their representatives.7 We performed our
audit work in the Small Business/Self-Employed Division Office of Collection Policy during the
period August through December 2006. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and


6
  The IRS Data Book is published annually by the IRS and contains statistical tables and organizational information
on a fiscal year basis.
7
  I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                                                                                            Page 2
                                        Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                                             Process Procedures



methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

Results of prior TIGTA reviews
This is our ninth annual audit to determine if the IRS complied with the legal requirements of
I.R.C. § 6320, and its own related internal guidelines, when filing Notices of Federal Tax Lien.
In prior years, we reported the IRS had not yet achieved full compliance with the law and its own
internal guidelines. Figure 2 shows the percentages of potential violations of taxpayer rights.
                                          Figure 2: Potential Violations of Taxpayer Rights

                                        10%     9%
             Percentage of Violations




                                         8%

                                         6%                          5%          5%
                                                          4%
                                         4%                                               3%

                                         2%

                                         0%

                                               2002      2003       2004        2005    2006
                                                                  Fiscal Year

           Source: TIGTA mandatory lien reviews in FYs 2002 through 2006.




                                                                                                Page 3
                Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                     Process Procedures




                                 Results of Review

Lien Notices Were Not Always Mailed Timely, and Proof of Mailing
Could Not Always Be Located
A review of a statistically valid sample of 150 Federal Tax Lien cases identified 142 cases
(95 percent) for which the IRS did mail timely and correctly the taxpayers’ notices of a lien
filing and appeal rights as required by I.R.C. § 6320 and internal procedures. However, the
IRS did not comply with internal procedures for 4 taxpayer notices (about 3 percent) that were
not sent timely. We estimate that 15,847 lien notices filed between July 1, 2005, and
June 30, 2006, could have been mailed late based upon IRS procedures. This year’s review
showed an improvement in the timeliness of mailing lien notices since completion of our prior
audit, which had shown 4.67 percent of the lien notices were sent late (projected to a potential
23,825 late notices).
I.R.C. § 6320 requires the IRS to notify taxpayers in writing within 5 business days of the filing
of a Notice of Federal Tax Lien. Because of difficulties in obtaining and controlling the filing
dates from numerous courthouses across the country, IRS procedures require that notices be
mailed within 5 business days of when the liens are printed for mailing to the courthouses.
Management could not provide an explanation as to why the lien notices were not mailed timely.
Delays in mailing the lien notices can reduce the time taxpayers have to request a hearing to less
than the 30 calendar-day period allowed by the law. These errors could result in violations of
taxpayers’ rights should they appeal the filing of the lien notices and the IRS deny the requests
for appeal.
For another 4 lien notices (about 3 percent), we could not determine if the IRS complied with the
law because the IRS could not provide proof of mailing. This is an increase over the 2 lien
notices (1.33 percent) we had identified in our prior audit, but it is an improvement from the
previous years when the missing certified mail lists averaged 9.9 percent. IRS procedures
require retention of the date-stamped copy of the certified mail lists for 10 years after the end of
the processing year. Management could not provide an explanation as to why the mail listings
were not available. Without the dated proof of mailing, the IRS may be unable to protect itself
against a taxpayer’s claim that he or she did not receive timely notice of the lien and was
unaware a Federal Tax Lien existed against his or her assets.




                                                                                             Page 4
                   Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                        Process Procedures



Recommendation
Recommendation 1: The Director, Collection, Small Business/Self-Employed Division,
should consult with the IRS Office of Chief Counsel to identify any actions necessary to correct
the potential legal violations we identified in this audit.
         Management’s Response: IRS management agreed with the recommendation.
         Management has consulted with the IRS Office of Chief Counsel and will issue new lien
         notices to the eight taxpayers we had identified and will review procedures for mailing
         notices and maintaining certified mailing lists.

Ineffective Working of Undelivered Lien Notices Resulted in Violations
of Taxpayers’ Rights
IRS procedures require that it send a lien notice to a new address if the originally mailed notice is
returned because it could not be delivered and a different address is available for the taxpayer.
CLU employees are responsible for certain actions when notices are returned as undeliverable.
They are required to research the IRS computer system to ensure the address on the original lien
notice is correct. If the address on the notice is not the last known address8 and a different
address was in effect prior to issuance of the original lien notice, then they should issue a new
notice to the better address within 5 business days of receipt. When a new address is found, the
CLU employee should update the Automated Lien System (ALS) to document the undelivered
mail and to ensure the new notice is created. If the CLU employee cannot find a new address on
the IRS computer system, the undelivered lien notice will be destroyed and the case will be
closed.
For the period of June 14 through June 26, 2006, we selected a judgmental sample of 400
undelivered lien notices. The judgmental sample included only returned mail identified as
undelivered; it did not include returned mail identified as refused or unclaimed. For these
400 cases, we reviewed computer system audit trails to determine whether CLU employees
performed any research on IRS computer systems to determine whether the addresses were
correct on the originally mailed notices. Our research showed that CLU employees were not
always researching IRS computer systems to determine whether taxpayer addresses on
undelivered lien notices were correct. The 400 cases noted above were handled by CLU
employees as follows:
         •   For 60 cases, CLU employees did not research IRS computer systems for different
             addresses.



8
  The last known address is that shown on the most recently filed and properly processed tax return, unless the IRS
received notification of a different address.
                                                                                                             Page 5
            ,   Fiscal Year 2007 Sfafufory Review of Compliance Wifh Lien Due
                                     Process Procedures



           For 74 cases, CLU employees performed the required research but not within
           5 business days of receipt of the returned notice (average was 7.4 business days,
           ranging from 6 business days to 8 business days).
           For 266 cases, CLU employees performed the required research within 5 business
           days of receipt of the returned notice.
Our research also identified 42 cases for which the address on IRS computer systems and the
original lien notice did not agree and the CLU employees were not properly updating the ALS to
document the undelivered mail. Only 32 of the 42 cases we identified were documented in the



additional cases.
Because our review showed CLU employees did not always research the IRS computer systems
for last known addresses, the IRS did not meet its statutory requirement of sending each lien
notice to the taxpayer's last known address. These cases could involve legal violations.
This condition occurred because procedures are not adequate to ensure returned lien notices are
properly controlled and accounted for. In July 2005, IRS management implemented interim
guidelines that eliminated the procedures for (1) tracking returned mail as undelivered, refused,
or unclaimed on the ALS and (2) returning the undelivered mail to the lien initiator, such as a
revenue officer. These temporary procedures were implemented during the centralization of the
lien processing operation so the IRS could complete the backlog of returned mail. However,
these procedures became permanent in December 2005.
In addition, undelivered lien notices are routed to three locations before they are researched by
CLU employees to determine whether the addresses on the original notices are correct.
Currently, the mail is received at the Cincinnati Campus in Covington, Kentucky, where it is
extracted and sorted by mail type. The returned lien notices are routed to a part of the CLU that
is located in a different building; here, the undelivered notices are date stamped, batched, and
routed to another city, where CLU employees actually perform the research on IRS computer
systems to identify the last known addresses. This routing can delay the processing of the mail,
which could have caused the undelivered mail not to be researched within the required
5 business days of receipt of the returned notice.

The IRS National Headquarters conducted a notice compliance review
In June 2006, the IRS performed a review of CLU activities to ensure procedures are being
followed and taxpayers' rights are being protected. This was the first review performed since the
lien operation was centralized at the Cincinnati Campus. The review was conducted jointly by
Headquarters Operations and the Collection Policy function. The scope of the review was
expanded to provide a status update of the lien operation. Normally, the review includes

                                                                                           Page 6
                Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                     Process Procedures



analyses to determine if the IRS timely notified taxpayers, business partners, spouses, and
taxpayer representatives of the filing of a Notice of Federal Tax Lien and timely processed
undelivered mail. The draft report of the IRS review shows results similar to those in our
review.
During the IRS compliance review of the CLU operations, personnel randomly selected
100 Automated Collection System (ACS) cases to evaluate compliance with the lien notification
requirement. For the sampled cases, 17 lien notices were issued late. Eight of those notices were
affected by the printing stoppage that resulted from the landfall of Hurricane Katrina. In
addition, the IRS review found that copies of lien notices were appropriately issued to all powers
of attorney.
IRS personnel selected another sample of 100 lien cases to evaluate the processing of
undelivered lien notices; they determined only 9 undelivered lien notices were appropriately
reissued and the remaining 91 cases showed various procedures were not followed. The IRS
review team concluded that the I.R.C. legal requirement to issue the lien notice within 5 business
days was not met.

Recommendation
Recommendation 2: The Director, Collection, Small Business/Self-Employed Division,
should reestablish procedures for (1) controlling returned lien notice mail on the ALS as
undelivered, refused, or unclaimed and (2) returning undelivered lien notices to the initiators of
the Notices of Federal Tax Lien. In addition, the Director, Collection, Small Business/
Self-Employed Division, should change the procedures for routing undelivered mail among three
offices.
       Management’s Response: IRS management agreed with the recommendation.
       Management has revised the Internal Revenue Manual requiring employees to conduct
       research for last known addresses so immediate appropriate actions can be taken on
       undelivered mail. Management will amend the programming request for the Inbound
       Return Receipt Notice Delivery System to include lien notice processing. This change
       will systematically upload mail information to the ALS, thus eliminating the need for
       retention, date stamping, and filing of certified/registered mail lists. Management will
       initiate discussions to determine whether returning notices to originators provides a
       benefit to taxpayers and the IRS.




                                                                                              Page 7
                 Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                      Process Procedures



Internal Guidelines for Notifying Taxpayer Representatives Were Not
Always Followed
Taxpayer representative information is contained on the Centralized Authorization File that is
located on the Integrated Data Retrieval System (IDRS), a system that enables IRS employees to
access taxpayer accounts. Using the IDRS, employees can research the Centralized
Authorization File to identify the types of authorization given to taxpayers’ representatives.
IRS employees responsible for making the lien filing determination are to ensure all appropriate
persons, such as those with a taxpayer’s power of attorney, receive a notice of the lien filing and
the taxpayer’s appeal rights. Specifically, IRS procedures require that a copy of the notice be
sent to the taxpayer’s representative no later than 5 business days after the notice is sent to the
taxpayer when a Notice of Federal Tax Lien is filed.
From review of 150 liens filed between July 1, 2005, and June 30, 2006, we determined 25 had
representatives listed on the Centralized Authorization File at the time the ALS generated the
liens. In 15 (60 percent) of the 25 cases, the ALS records did not indicate the IRS had sent
copies of the lien notices to the representatives. In 12 of the 15 cases, revenue officers did not
document that they had requested lien notices be sent to the taxpayers’ representatives. In the
other 3 cases, ACS function employees did not electronically forward the taxpayers’
representatives’ information so the ALS would send copies of the lien notices.
Revenue officers are required to document in the case history when they request a lien filing and
a lien notice for a taxpayer’s representative. Revenue officers’ managers are required to examine
case files for this documentation during their regular review process.
In a previous report,9 we had identified similar conditions and made recommendations to
implement computer programming enhancements. In August 2006, these programming changes
were implemented. Because these systemic changes occurred after our sample selection, this
process will be evaluated during our next statutory review of the lien due process procedures,
scheduled for FY 2008.




9
 Fiscal Year 2006 Statutory Review of Compliance with Lien Due Process Procedures (Reference
Number 2006-30-094, dated June 2006).




                                                                                               Page 8
                  Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether IRS Notice of Federal Tax Lien
filings and notices of taxpayers’ appeal rights complied with legal guidelines set forth in
I.R.C. § 6320.1 Specifically, we:
I.      Determined whether taxpayer lien notices related to 150 Notices of Federal Tax Lien
        filed by the IRS complied with legal requirements set forth in I.R.C. § 6320 (a) and
        related internal guidelines.
        A. Selected a statistically valid sample of 150 Notices of Federal Tax Lien cases from an
           ALS2 extract of the 594,270 liens filed by the IRS nationwide between July 1, 2005,
           and June 30, 2006. We used a statistical sample because we wanted to project the
           number of cases with errors. We used attribute sampling to calculate the minimum
           sample size (n),3 which we rounded to 150:
              n = (Z2 p(1-p))/(A2)
              Z = Confidence Level:            90 percent (expressed as 1.65 standard deviation)
              p = Expected Rate of Occurrence: 5 percent4
              A = Precision Rate:              ±3 percent
        B. Validated the ALS extract by comparing the sampled records to online data from the
           Integrated Collection System (ICS) and the ACS because Small Business/
           Self-Employed Division management stated that they had no data checks ensuring
           reliability, completeness, and accuracy.
        C. Determined whether the sampled liens adhered to legal guidelines regarding timely
           notifications of lien filings to the taxpayer, the taxpayer’s spouse, and/or business
           partners by reviewing data from the ALS, ICS, ACS, IDRS, and certified mail lists.
        D. Assessed the controls and procedures established for transferring, storing, and
           safeguarding certified mail lists at the CLU to determine whether enhancements had
           been implemented since completion of our prior audit.



1
  I.R.C. § 6320 (Supp. V 1999).
2
  See Appendix VI for descriptions of IRS computer systems mentioned in Appendix I.
3                     2            2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing - The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
4
  The actual error rate in our prior report was 4.67 percent.
                                                                                                           Page 9
                  Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                       Process Procedures



        E. Determined whether the taxpayers’ representatives were provided a copy of the lien
           notices by reviewing data from the ALS, ICS, ACS, and IDRS.
             1. Reviewed IDRS screens and Master File5 extracts for Centralized Authorization
                File6 indicators (Transaction Code 960) for the sampled cases.
             2. Reviewed the ALS history screens for all sampled accounts to determine whether
                notices were mailed to taxpayers’ representatives.
             3. Reviewed ICS case histories for documentation that taxpayers’ representatives’
                name/address information was sent to the CLU or that the revenue officers had
                mailed the notices directly to the taxpayers’ representatives for the sampled cases
                that did not have taxpayers’ representatives notifications on the ALS histories.
             4. Reviewed the ACS case history for documentation that taxpayers’
                representatives’ name/address information was electronically transmitted to the
                CLU.
        F. Provided all exception cases to Small Business/Self-Employed Division Office of
           Collection Policy for agreement to potential violations and corrective actions if
           appropriate.
II.     Determined whether internal guidelines had been implemented or modified since
        completion of our last audit by discussing procedures and controls with appropriate
        personnel in the Small Business/Self-Employed Division Office of Collection Policy.
III.    Determined the status of the ICS and ACS system enhancements as planned and any
        problems encountered.
IV.     Evaluated the procedures for processing lien notices that are returned as undelivered.
        A. Selected a judgmental sample of 400 undelivered lien notices from the period of
           June 14 through June 26, 2006. The judgmental sample included only returned mail
           identified as undelivered; it did not include returned mail identified as refused or
           unclaimed. A judgmental sample was used because IRS did not control the receipt of
           undelivered mail; therefore, the auditors were unable to determine the population
           because time was limited. Also, the test was conducted to show control weaknesses
           for which management needed to take corrective action.




5
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
6
  The Centralized Authorization File contains information regarding the type of authorization that taxpayers have
given representatives for various modules within their accounts.
                                                                                                           Page 10
        Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                             Process Procedures



B. Researched the Master File using IDRS command code INOLES and determined
   whether the address on the Master File matched the address on the undelivered lien
   notice for each sampled case.
C. Researched the ALS database and determined whether the lien notice was mailed to
   the updated address and was identified as undelivered on the ALS and whether a new
   lien notice was sent to the taxpayer’s updated address for all sampled cases.
       1. Reviewed taxpayer audit trails for all of the address mismatch cases and
          determined whether CLU employees performed the required IDRS address
          research using command code INOLES.
       2. Determined whether the lien notice was returned to the initiator and
          documented on the ICS for each sampled case for which the lien notice was
          not re-sent to the taxpayer.
D. Determined whether management requested and received approval from the IRS
   Office of Chief Counsel prior to revising the Internal Revenue Manual procedures
   allowing employees to discard and stop tracking returned mail that is undeliverable,
   unclaimed, or refused. We also requested an opinion from the TIGTA Office of
   Chief Counsel to determine whether the revised procedures are compliant with the
   I.R.C.




                                                                                 Page 11
               Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                    Process Procedures



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Edward Gorman, Audit Manager
Lawrence R. Smith, Senior Auditor
Janis Zuika, Senior Auditor
Denise Gladson, Auditor
Stephen Elix, Student Trainee




                                                                                        Page 12
              Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                   Process Procedures



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 13
                  Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                            Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 15,847 Notices of Federal Tax Lien and Your
    Right to a Hearing Under IRC 6320 (Letter 3172)1 were mailed late, causing potential legal
    violations of taxpayers’ rights (see page 4).

Methodology Used to Measure the Reported Benefit:
From a nationwide statistically valid sample of 150 Federal Tax Lien cases,2 we identified 4 lien
notices (about 3 percent) with potential legal violations of taxpayers’ rights. The sample was
selected based on a confidence level of 90 percent, a precision rate of ±3 percent, and an
expected rate of occurrence of 5 percent. We projected the findings to the total population
provided by the IRS of 594,270 Notices of Federal Tax Lien generated by the ALS between
July 1, 2005, and June 30, 2006. We estimated that similar taxpayer rights could have been
affected in 15,847 lien notices (4/150 x 594,270 population). We are 90 percent confident that
the range of notices with similar errors is between 15,372 and 16,322.
Taxpayer rights could be affected because a taxpayer not receiving a notice or receiving a late
notice might not be aware of the right to appeal or have less than the 30 calendar-day period
allowed by the law to request a hearing. In addition, taxpayer rights could be affected when the
taxpayer appeals the filing of the lien and the IRS denies the request for the appeal.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 60 taxpayers were not provided Letters 3172,
    causing potential legal violations of taxpayers’ rights (see page 5).

1
 Rev. 11-2004, Cat. No. 26767I.
2
 One Notice of Federal Tax Lien (Form 668(Y) (C), Rev. 10-1999, Cat. No. 60025X) may require multiple
Letters 3172 because the IRS is required to separately notify taxpayers’ spouses and business partners.




                                                                                                      Page 14
               Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                    Process Procedures



Methodology Used to Measure the Reported Benefit:
From a judgmental sample of 400 undelivered lien notices, we identified 60 cases for which
CLU employees did not research IRS computer systems for different addresses.
Taxpayer rights could be affected because a taxpayer not receiving a notice or receiving a late
notice might not be aware of the right to appeal or have less than the 30 calendar-day period
allowed by the law to request a hearing. In addition, taxpayer rights could be affected when the
taxpayer appeals the filing of the lien and the IRS denies the request for the appeal.




                                                                                         Page 15
                  Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                              Appendix V

             Synopsis of the Internal Revenue Service
               Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. The IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
•   IRS employees who make personal (face-to-face) contact with taxpayers are called revenue
    officers and work in various IRS locations. The computer system used in most of these
    locations to track collection actions taken on taxpayer accounts is called the ICS.1
•   IRS employees who make only telephone contact with taxpayers work in call sites in IRS
    Customer Service offices. The computer system used in the call sites to track collection
    actions taken on taxpayer accounts is called the ACS.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a lien by sending a Notice of Federal Tax Lien2 to
appropriate local government offices. Liens protect the Federal Government’s interest by
attaching a claim to the taxpayer’s assets for the amount of unpaid tax. The right to file a Notice
of Federal Tax Lien is created by I.R.C. § 6321 (1994) when:
•   The IRS has made an assessment and given the taxpayer notice of the assessment, stating the
    amount of the tax liability and demanding payment.
•   The taxpayer has neglected or refused to pay the amount within 10 calendar days after the
    notice and demand for payment.
When designated employees request the filing of a Notice of Federal Tax Lien using either the
ICS or the ACS, the ALS processes the lien filing requests from both Systems. In an expedited
situation, IRS employees can manually prepare the Notice of Federal Tax Lien. Even for
manually prepared liens, the ALS controls and tracks the liens and initiates subsequent lien
notices3 to notify responsible parties of the lien filings and of their appeal rights. The ALS
maintains an electronic database of all open Notices of Federal Tax Lien and updates the IRS’
primary computer records to indicate a Notice of Federal Tax Lien has been filed.

1
  See Appendix VI for detailed descriptions of IRS computer systems mentioned in Appendix V.
2
  Notice of Federal Tax Lien (Form 668(Y) (C); (Rev. 10-1999)), Cat. No. 60025X.
3
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 11-2004)),
Cat. No. 26767I.
                                                                                                       Page 16
               Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                    Process Procedures



Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. To maintain a record of the notices, the IRS prepares a certified mail list
(United States Postal Service Form 3877), which identifies each notice that is to be mailed. The
notices and a copy of the certified mail list are delivered to the United States Postal Service. A
United States Postal Service employee ensures all notices are accounted for, then date stamps the
list and returns a copy to the IRS. The stamped certified mail list is the only documentation the
IRS has that certifies the date on which the notices were mailed. IRS guidelines require that the
stamped certified mail list be retained for 10 years after the end of the processing year.




                                                                                          Page 17
                  Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                              Appendix VI

Internal Revenue Service Computer Systems Used in
      the Filing of Notices of Federal Tax Lien

The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. ACS function employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the Notices of Federal Tax Lien and related lien
notices and updates the IRS’ primary computer files to indicate that Notices of Federal Tax Lien
have been filed.
The Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal
Tax Lien and lien notices, stores taxpayer information, and documents all lien activity. Lien
activities on both the ACS and the ICS cases are controlled on the ALS by Technical Support or
Case Processing functions at the Cincinnati, Ohio, Campus.1 Employees at the Cincinnati
Campus process Notices of Federal Tax Lien and lien notices and respond to taxpayer inquiries
using the ALS.
The Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the Notices of Federal Tax Lien and related lien notices and updates the IRS’
primary computer files to indicate Notices of Federal Tax Lien have been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in campuses and other IRS locations.
The IDRS enables employees to perform such tasks as researching account information,
requesting tax returns, entering collection information, and generating collection documents.
The IDRS serves as a link from campuses and other IRS locations to the Master File2 for the IRS
to maintain accurate records of activity on taxpayers’ accounts.




1
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                        Page 18
   Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                        Process Procedures



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 19
Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                     Process Procedures




                                                        Page 20
Fiscal Year 2007 Statutory Review of Compliance With Lien Due
                     Process Procedures




                                                        Page 21
